ES, IG-99-059, Matching Disbursements to Obligations
MATCHING DISBURSEMENTS TO OBLIGATIONS
IG-99-059
Executive Summary
Background
To comply with fiscal law, NASA is responsible for ensuring that its
appropriated funds are used for the purposes authorized by the Congress.
This requirement necessitates implementation of sound management controls
over obligations(1) and disbursements(2) in order to maintain appropriation
integrity.  Obligations are established within the accounting system to
control NASA's appropriated funds.  Disbursements should be properly matched
to, and recorded against, the applicable obligations to ensure that only
authorized funds are disbursed and that contractor payments are accurately
recorded in the financial statements.  A disbursement is properly matched to
an obligation if the obligation cites the correct appropriation and program
year(3) authorized to make the payment.  Properly matching disbursements to
obligations is particularly important in procurement actions involving
multiple appropriations or multiple program years.  NASA costs its
obligations by recording contractor-incurred cost information against
obligations in order to estimate accrued expenditures and associated
liabilities.
Objective
The objective of the audit was to determine whether NASA organizational
components were properly matching disbursements to the appropriate
obligations.  To accomplish this, we reviewed a total of 36 contract
disbursements at NASA Headquarters and three Centers that involved multiple
appropriations or multiple program years.  Details on our scope and
methodology are in Appendix A.
Results of Audit
NASA management has not ensured that authorized funds have been used for
their intended purposes.  Of the 36 reviewed disbursements totaling about
$44.8 million, about $44.7 million may have been charged to the incorrect
appropriation, which may have resulted in violations of fiscal law.
Recommendations
The Agency should revise NASA policy to establish procedures that enable
financial management activities to properly match disbursements to
obligations in the correct appropriation and program year.
Management's Response
Management did not concur with the recommendations.  Management stated that
the finding and recommendations were without legal or practical foundation
or merit.  NASA management, supported by a legal opinion from the NASA
General Counsel, stated that its disbursing practices, including making
disbursements against the oldest costed obligations for contracts funded
with multiple appropriations, is an accepted method of charging
appropriations and that the cost accrual process ensures disbursements are
properly matched to obligations.
Evaluation of Management's Response
Management's comments are nonresponsive.  We disagree that fiscal statutes
permit the charging of the oldest obligations first on contracts funded with
multiple appropriations.  The Comptroller General stated in 17 Comp. Gen. 748
(1938) that an incorrect appropriation cannot be charged for administrative
expediency.  Doing so would violate the provisions of Title 31, United States
Code Section 1301(a), which requires that appropriations be applied only to
the objects for which the appropriations were authorized.  We continue to
hold that this decision is applicable to the NASA situation.  Disbursements
should be made only from appropriations available to pay for the work
performed.  Matching disbursements to underlying obligations ensures the
correct appropriations are charged.  We further disagree that NASA's costing
process results in disbursements being matched to the correct obligations.
Matching is a sound accounting practice and a key part of an effective
internal control structure.  We maintain our position on this issue and,
therefore, request that management reconsider its position based on our
evaluation and provide additional comments.
FOOTNOTES
1.  Obligations are the amount of orders placed or contracts awarded that will require the disbursement of funds and represent a contractual agreement of NASA to pay for the items or services when they are received.
2.  A disbursement is an outlay of public moneys and the rendering of accounts in accordance with laws and regulations governing the distribution of public moneys.
3.  The program year is the fiscalyear in which a program is authorized.